Credit Card Agreement for Melaleuca Rewards Visa® Card
issued by Banco Popular de Puerto Rico
Interest Rates and Interest Charges

Annual Percentage Rate (APR)
for Purchases

Your APR will be from 13.24% to 26.24%, based on your creditworthiness.

APR for Balance Transfers

0% introductory APR for the first 12 months. Applies to transfers made within the
first 90 days from account opening.

This APR will vary with the market based on the Prime Rate.

After that, your APR will be from 13.24% to 26.24%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
APR for Cash Advances

24.24% to 28.24%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

Penalty APR and When it
Applies

29.99%1
This APR may be applied to your account if you miss a required Minimum
Payment for a period of sixty (60) consecutive days from its Payment Due Date.
How Long Will the Penalty APR Apply?: If your APR is increased for
this reason, the Penalty Rate will remain in effect until the account becomes
current and six (6) consecutive required Minimum Payments are received on or
before the Payment Due Date.

Paying Interest

For Credit Card Tips from the
Consumer Financial Protection
Bureau

Your payment due date is at least 25 days after the close of each billing cycle. You
will not be charged interest from the time you purchased goods or services, if you pay
your full account balance by the Payment Due Date. In the event you don’t pay the
full account balance, while in Grace Period, you will not pay interest on the amount
paid for that cycle. On subsequent cycles you will not have grace period until you pay
your full account balance on time for two cycles in a row. Amounts related to certain
offers will not be taken into consideration in determining the Grace Period, please
refer to the offer terms and conditions. There is no grace period for Balance Transfers,
Convenience Checks or Cash Advances and begin to accrue interest on the date they
are posted and remain subject to Interest Charges until paid in full.
To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee

$0 Annual Fee
$0 Additional Card Fee

Transaction Fees
• Cash Advances and
Convenience Checks
• Balance Transfers

2% of the amount of each transaction (minimum $2; maximum $10)

• Foreign Transaction

1% of each transaction in U.S. dollars for Visa

2% of the amount of each transfer (minimum $2; maximum $10)

Penalty Fees
• Returned Payment

Up to $10

• Late Payment

Up to $38

How We Will Calculate Your Balance: We use a method called "average daily balance (including new transactions)”.
Please refer to your Agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the corresponding transaction APR if you
close your account or if you miss a payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Credit Card Agreement.
1The

corresponding Daily Periodic Rate for the Penalty APR is 0.0822%.

Please read these terms and conditions carefully and keep them for future reference.
The terms and conditions for the revolving credit Account we established for you are contained below. Your entire Agreement with us
includes: (1) the terms and conditions stated in this document and your application; (2) your Account-Opening Disclosures and all
disclosures and materials provided to you before or when you opened your Account; (3) all billing statements; (4) any rewards program
terms, conditions, and disclosures; (5) our privacy notices; (6) any other documents relating to your Account that we send by email or
post online; and (7) any amendments we make to such documents from time to time.
Use of the Card (the credit Card we issue to you to access your Account) constitutes acceptance of this Agreement. If you accept the
Card, you should sign the Card immediately when you receive it. This Agreement applies whether or not you use your Card and will
continue to apply even after your Account is closed, as long as you have a balance. If you choose not to accept the Card, you should
not use it and should notify the Bank within 15 days after receiving this Agreement by contacting Customer Service.
Your Agreement and Promise to Pay: By using your Card, Account number or a device to access your Account, making a payment on
the Account, or signing an application for any Card we send you, you represent you are of legal age in your state of residence and you
agree to the terms of this Agreement. You agree to pay us all amounts that we lend to you on your Account, together with Interest
Charges and fees as provided in this Agreement. You agree to release and indemnify us from liability for damages, losses, or expenses
that arise as a result of our compliance with your instructions.
WHO ARE THE PARTIES TO THIS AGREEMENT?
TERMS WE USE

WHAT IT MEANS

HOW IT AFFECTS YOU

You and your

All persons who applied for the
Account or who are liable on
the Account by any other
means and all Authorized
Users.

If there are joint Cardholders, each of you will be responsible individually
and jointly for the entire amount due on the Account. We may send
communications to either of you; we may disclose information about the
Account to either of you; and we may accept instructions from either of you
(even if you have a disagreement).

We, us, our and Banco Popular de Puerto Rico,
Banco Popular
its agents, authorized
representatives, successors
and assigns.

We are the lender on your Account and the issuer of your Card.

Authorized User

An Authorized User is any person you request us to issue a Card that
accesses your Account or any person you give your Card or Card number
to. You are responsible for any charge on your Account by an Authorized
User even if you told that person not to make that specific charge. If you
wish to revoke an Authorized User, you must notify us through our Customer
Service. You are responsible for recovering from that Authorized User and
destroying any Cards, Convenience Checks and other devices that can be
used to access your Account.

Anyone else that you permit to
use your Account.

HOW DO YOU USE YOUR ACCOUNT?
You may use your Account only for personal, family or household purposes. You may not use your Account for illegal purposes or for
internet gambling (even if legal). However, you are still responsible for any transactions that you enter into, even if in violation of law or
this Agreement. You must take reasonable steps to prevent unauthorized use of your Account. Subject to applicable law we may cancel
or convert your Account to any of our other revolving accounts.
TERMS WE USE

WHAT IT MEANS

HOW IT AFFECTS YOU

Transactions or
Transaction Types

The Transaction Types are:
Purchases, Cash
Advances, and Balance
Transfers, as described
below.

We do not guarantee that your Card will be accepted when you attempt to
use it. You may carry out Transactions by using your Card, Account number
or other credit device linked to your Account (including a mobile device,
subject to the terms and conditions of that service). Each Transaction Type
will have its own balance and may have a separate Interest Charge.

Purchases

When you use the Card to
buy goods and services
from merchants that accept
the Card.

The merchant will receive our authorization or denial to charge your Account
in accordance with the terms of the Agreement. We may deny any Purchase
transaction authorization request from a merchant at our sole discretion for
security and other reasons, even if there is sufficient available credit. We are
not responsible for any losses associated with a declined transaction.

Balance Transfers
and Fees

When you transfer a
balance from another credit
card.

We permit Balance Transfers from most accounts issued by other banks but
not from other accounts or loans with us or any of our affiliates. We will
charge a Balance Transfer fee based on the amount of each Balance
Transfer, as set forth in the Account-Opening Disclosures.

Cash Advances and
Fees

When you obtain cash or
an equivalent through your
Card.

The following transactions will be treated as Cash Advances: all advances to
obtain cash over the counter, through an ATM, and other “cash-like”
transactions, such as purchasing foreign currency, a money order, traveler’s
check, casino betting chip, or a lottery ticket. We will charge a Cash
Advance fee based on the amount of each Cash Advance, as set forth in the

Account-Opening Disclosures.
Convenience
Checks and Fees

The checks provided by us
for you to access your
Account.

Recurring
Transactions

When you authorize a third
party to bill charges on a
recurring basis to your
Account.

Credit Limit

The maximum amount that
you can have outstanding
on your Account at any
time taking into
consideration your credit
worthiness and/or payment
history.

Promotions
or Special offers related to
Introductory Offers
your Account.

The Convenience Check is subject to the Purchase APR. We have the right
not to pay a Convenience Check for any reason. You may not use a
Convenience Check to make a payment on the Account or any other account
with us. We will charge a Convenience Check Fee based on the amount of
each Convenience Check advance, as set forth in the Account-Opening
Disclosures.
We are not responsible for recurring transactions if your Account is closed or
suspended, or if the Account number or expiration date changes. You must
contact the third party to notify them of the changes of your account.
Your Credit Limit is based on your credit worthiness and/or your payment
history. We will advise you of the total credit limit on your Account when we
first send you your Card and thereafter, in each billing statement. We may
establish a lower limit for Cash Advances. If no separate Cash Advance limit
is listed on our billing statement, then the Credit Limit for Cash Advances is
the amount of your total Credit Limit. Your Credit Limit and Cash Advance
limit may change from time to time taking into consideration your credit
worthiness and/or payment history. We may cancel, change, or rescind your
credit availability at any time. We will notify you of any such changes through
your billing statement or by sending you a separate notice, which may be
after the change occurs.
We may approve at our sole discretion a Transaction that causes your
Account balance to exceed the Credit Limit. In such case, we will add the
excess to your Minimum Payment.This will not be considered an increase in
your Credit Limit nor do we waive any of our rights by doing so.
Introductory APRs and special fees are described in the Account-Opening
Disclosures. Any special offer is subject to this Agreement, unless specified
otherwise.
We will provide you with all information and terms about your Rewards
separately, if applicable.

Rewards

Loyalty Rewards tied to the
use of your Card.

Foreign
Transactions, Fees
and Exchange Rate

Transactions that take
place outside the United
States. They will be billed
to you in U.S. Dollars.

The applicable card association (such as Visa and MasterCard) will convert
to U.S. dollars transactions made in a foreign currency using a governmentmandated or wholesale rate in effect on the processing date (which may
differ from the rate on the date of your transaction). The rate used may differ
from the rate that the card association actually receives. A fee will be
assessed on the U.S. Dollar amount of the transaction. See “Fees” section
on the Account-Opening Disclosures for the fee applicable to the Account.

Mobile Wallet
Service

The payment service
provided by third
party/mobile device which
allows you to make
Purchases or payments
with your credit Card
through a wallet enabled
mobile device.

Allows you to add your credit Card to an application using your mobile device.
Your credit Card number is replaced with a digital number or token. Once
loaded you may use your mobile device to make Purchases or payments only
where the Wallet is accepted.

WHAT DO YOU HAVE TO PAY AND WHEN?
We will send your billing statement each month to the address on file as long as there are transactions or a balance due during the billing
cycle. It will show your Minimum Payment and the Payment Due Date, and will provide instructions for making your payment.
TERMS WE USE

WHAT IT MEANS

HOW IT AFFECTS YOU

Payment Instructions

The instructions on your
billing statement for making
payments to your Account.

You must follow the payment instructions provided on your billing statement.
All payments made by check must be drawn on a U.S. financial institution in
U.S. Dollars made to the order of Banco Popular de Puerto Rico. Any such
payment must be sent to the special address identified on your billing
statement accompanied with the payment stub. You authorize us to either use
information from your check to make a one-time electronic fund transfer from
your account or to process the payment as a check transaction. Mailed
payments are credited on the same day received if they are received by 5:00
p.m. AST Monday through Friday (excluding holidays). Electronic and
telephone payments are credited on the same day if they are received by 5:00
p.m. EST Monday through Friday (excluding holidays). We may apply a credit
line availability hold condition to your Account in the amount of the payment
until your check or other payment instrument has cleared. The result of this
hold is that the credit line availability resulting from a payment to your Account

Payment Due Date

The date by which we must
receive the Minimum
Payment in order for it to
be on time.

Minimum Payment

The minimum amount you
must pay each billing cycle,
as shown on your billing
statement.

Skip A Payment Offer

We may offer you, at our
option, to skip a Minimum
Payment for certain billing
cycles.

Paying Interests
The period of time during
Grace Period on
which you are not charged
Purchases
interest on Purchases if
you pay the full account
balance on time.

There is no Grace Period
for Balance Transfer or
Cash. Advances or when
you use Convenience
Checks
Application of How we apply your
Payments payment to the balance on
your Account.

No Grace Period

Credit Balances

When an inadvertent
overpayment occurs in
your Account.

will be delayed. The payment will be applied to your Account on the date we
receive it in accordance with this section. We may take up to 5 days to
process any credit of other payments that do not meet these requirements,
during which interest will not accrue. We may accept and process late, partial
and payments marked as “paid in full” without losing our rights under this
Agreement. If your payment is reversed due to insufficient funds or a returned
check, we will apply a credit line availability hold condition to your Account and
you may lose any special APR offers. The result of this hold is that the credit
line availability resulting from a payment to your Account will be delayed for 7
calendar days after the payment is processed. The hold condition will be
canceled after 6 billing cycles where no other payment reversal event takes
place.
Your monthly billing statement will list the Payment Due Date. It will usually
be the same day of each month, at least 25 days after closing of the billing
cycle shown on the billing statement.
You agree to pay at least the Minimum Payment when due. For Account
balances between $0.01 up to $26.99, the Minimum Payment will be the
outstanding balance. For balances of $27 and over, the Minimum Payment
will be 2% of the outstanding balance or the Interest Charge + $10 or a fixed
amount of $27, whichever is higher. The Minimum Payment will include any
past due amounts, any Late Payment fee and the total of any amount
charged in excess of your credit limit.
If you receive this offer, your billing statement may reflect a required Minimum
Payment of $0, and you may not have to make the Minimum Payment for that
billing cycle. If you decide to skip a payment we will continue to accrue
Interest Charges on the unpaid balance of your Account during that period.
However, you can always make a payment for any amount. At the end of the
skip a payment period, the terms of the Agreement regarding the required
Minimum Payment will automatically resume.
You will not be charged interest from the time you purchased goods or
services, if you pay your full account balance by the Payment Due Date. In the
event you don’t pay the full account balance, while in the Grace Period, you
will not pay interest on the amount paid for that cycle. On subsequent cycles
you will not have a Grace Period until you pay your full Account balance on
time for two cycles in a row. Amounts related to certain offers will not be taken
into consideration in determining the Grace Period. Please refer to the offer
terms and conditions.

The No Grace Period Transactions begin to accrue interest on the date they
are posted and remain subject to Interest Charges until paid in full.

We will apply your Minimum Payment in the following order: to Interest
Charges, then to Fees and the remaining amount is applied first to the
balance with the lowest APR and then to the balance with the higher APR in
ascending order. Consequently, the balance with the higher APR will not be
reduced, until the balance with the lower APR is paid in full. If you pay an
amount in excess of the Minimum Payment, the excess will be applied to
balances with the highest APRs first.
We may reject and return to you any payment that creates a credit balance on
your Account. If we allow any credit balance in your Account due to any
inadvertent overpayment, you may request a refund of credit balances at any
time. We will not pay interest on any credit balance in your Account. If no
refund is requested, we will apply credit balances to new transactions, unless
prohibited by law. If you do not make new transactions within 180 days, we
will send you a refund.

WHAT ARE THE CHARGES AND HOW ARE THEY CALCULATED?
TERMS WE USE

WHAT IT MEANS

HOW WE CALCULATE IT

Daily Balance

The balance on each
transaction type and APR
each day.

We calculate the Daily Balance by taking the beginning balance for each type
of transaction and APR each day, adding any new transactions, and then
subtracting any payments and/or credits and other adjustments. We treat any
daily balance that is a credit balance as a zero balance.

Average Daily
Balance

The average balance each
day during the billing cycle.

Annual Percentage
Rate (APR)

An annualized interest rate.
Different APRs apply to the
different transaction types,
as shown on the AccountOpening Disclosures.

Daily Periodic Rate
(DPR)

A daily interest rate we
calculate.

Interest Charges

The amount we charge you
for your credit on each
transaction type.

We calculate the Average Daily Balance by adding all of the Daily Balances
for each day in the billing period and then dividing by the total number of days
in the billing period.
Your APRs are variable. They increase or decrease with the Prime Rate. The
APR will be determined by adding the Prime Rate (as published by The Wall
Street Journal) to a margin. The margin applicable to your Transaction types
will depend on your credit worthiness at the time of approval of your
application and will be set at the time of approval of your application. For each
billing cycle, the Interest Charge and the APR will be based on the Prime Rate
three business days prior to your billing statement closing date. If The Wall
Street Journal is not published, we will select a similar rate. We may change
the margins from time to time for new transactions with notice to you.
We calculate interest using the daily periodic rate. The DPR for a given
balance is equal to the APR for that balance divided by 365 and rounded up
as permitted by law.
We add the Interest Charges to the Account by adding the Interest Charges to
each transaction type balance and APR to which it applies. (For example, we
add Interest Charges on Purchases to the Purchases balance.) We calculate
the Interest Charge by applying the DPR for each transaction type and APR to
the Average Daily Balance for that transaction type. We multiply the result by
the number of days in the billing cycle. That gives us the total Interest Charges
for that transaction type for that billing period.
Cash Advance, Balance Transfer, and Convenience Check fees are added to
their corresponding balances, as applicable, and all other fees are added to
the Purchases balance.

WHAT IF YOU PAY LATE?
If you pay the Minimum Payment amount by the Payment Due Date, you will not pay penalties. You should pay on time.
PENALTY

WHAT IT MEANS

WHAT WE WILL CHARGE YOU

Late Payment Fee

The fee we charge each
time your payment is late.

Default or Penalty
APR

A higher Interest Charge
for default.

If you pay late, or you pay less than the Minimum Payment, we may charge
you a late payment fee in the amount set forth on the Account Opening
Disclosures. In no event will your late payment fee exceed the amount of
your Minimum Payment due.
If we do not receive any Minimum Payment within 60 days of the Payment Due
Date, the Penalty APR will apply to all outstanding balances, as well as to future
transactions. The Penalty APR will stop being applied to transactions that
occurred prior to or within 14 days after we provided notice about the increase
to the Penalty APR if we receive six consecutive Minimum Payments on the
Payment Due Date beginning immediately after the increase to the Penalty
APR.

Returned Payment
Fee

A fee charged when your
payment is returned for
insufficient funds.

We may charge a returned payment fee in the amount set forth on the
Account Opening Disclosures.

WHAT OTHER FEES MAY APPLY?
There may be times when circumstances result in a fee or other action being assessed on the Account. The Account Opening
Disclosures list the amounts of these fees. All such fees will be added to the Purchase balance, unless otherwise indicated. Additional
fees for special services you request may apply, except as they may be unenforceable or inapplicable within Maryland. You will be
advised of the amount of such fees at the time of your request.
FEE

WHAT IT MEANS

WHAT WE WILL CHARGE YOU

Annual Fee

A fee we may charge
annually for use of the
Card.

If applicable, the Annual Fee will be reflected in your first billing statement after
the first Card is issued and subsequently on each anniversary of the issuance
of the Card.

Billing Statement
Reprint Fee

You can request a copy of
your billing statement.

We may add a billing statement Reprint fee of $2.50 to your Purchase
balance if you request a copy of your billing statement.

Card Replacement
Rush Order Fee

You can request that a new
or replacement Card be
sent to you on an
expedited basis.

We will add a Rush Order fee of $25 to your Purchase balance if you
request that a new or replacement Card be sent to you on an expedited
basis.

HOW CAN WE MAKE CHANGES?
We may have a number of reasons why we need to make changes in this Agreement and the terms of your Account from time to time.
We can make these changes in accordance with law. Written notice will explain how changes apply.
TYPE OF CHANGE

WHAT MAY TRIGGER CHANGE

ADVANCE NOTICE

Default or Penalty APR applies
to existing balances

If you are 60 days past due.

45 days

Other APR increases on new
transactions

In the first year, an introductory
APR ends or the Prime Rate
changes. After that, any reason.

None for Introductory APR expiration. Other increases 45
days. For Iowas 60 days.

Increase or decrease to Credit
Limits

Any reason.

None

Some fees and other terms

Any reason.

Up to 45 days for certain fee and Minimum Payment
changes. For Iowa 60 days.

WHAT YOU MUST DO

HOW IT AFFECTS YOU

Your Card is lost or stolen, or
your Account has been
compromised?

Contact us immediately and stop
using your Account. Contact us at
the address or telephone number
listed on your billing statement or
Card.

You will not be liable for any unauthorized use that occurs
after you notify us. You may, however, be liable for
unauthorized use that occurs before your notice to us. In any
case, your liability will not exceed $50.

Your Account is closed or
suspended?

You must still repay all amounts
you owe under this Agreement.

You remain responsible for your balance.

Your name, address,
telephone number, email
address or other information
has changed.

Notify us of any change.

We may also ask you to provide us updated financial
information about you, and you agree to do so.

WHAT HAPPENS IF?

MOBILE WALLET SERVICE
WHAT IT MEANS

WHAT YOU AGREE TO

A way to make Purchases or
payments using a mobile
device

You may choose to add your Card number to a Mobile Wallet Service. If you do so, you
acknowledge that we are not a provider of the Wallet, we do not control the device and we are not
responsible for any failure or inability to perform a transaction using the Wallet. We are only
responsible for supplying information securely to the Wallet provider to allow usage of your Card in
the Wallet. We reserve the right to define product eligibility. You agree that any such use of your
Account will be subject to all the terms and conditions contained in this Agreement. Your applicable
Purchase APR will apply to Purchases made using the Mobile Wallet Service. You acknowledge
that certain message and data rates may apply from your wireless service providers and/or wireless
carriers which might impact your use of the Wallet. For example, your mobile service carrier or
provider may impose data usage or text charges for your use of or interaction with the Wallet,
including downloading the software, receiving or sending text messages, or other use of your
mobile device when using the software or other products and services provided by the Wallet. You
expressly agree that you are responsible for all such fees, limitations, and restrictions and that we
may contact you via your mobile device for any purpose concerning your Account with us, including
Account servicing and collection purposes. We do not control the privacy and security of your
information that may be held by the Wallet provider and that is governed by the privacy policy given
to you by the Wallet provider. You agree not to leave your Mobile Device unattended while logged
into the Wallet and to log off immediately at the completion of each access by you. You agree not to
provide your password or other access information to any other person. If you believe that someone
may have unauthorized access to your Mobile Device, you agree to immediately cancel your access
to the Wallet associated with the Mobile Device. You agree to provide us with immediate notice in
the event you suspect fraud or any unauthorized access to any of your Accounts. You agree to take
every precaution to ensure the safety, security and integrity of your Account and transactions when
using the Wallet. Except as otherwise required by law, we may at our sole discretion change these
terms, and modify or cancel the eligibility to use your Card with a Wallet service at any time, without
notice. You cannot change these terms but you can terminate them by removing your Card from the
Wallet. We reserve the right to refuse any transaction for any reason.
You expressly understand and agree that your use of a Mobile Wallet Service is at your sole risk.
Any material downloaded or otherwise obtained through the use of the Wallet is obtained at your
own discretion and risk, and we are not responsible for any damage to your Mobile Device or loss of

data that results from the download of any such material, whether due to any computer virus or
otherwise. We make no representation or warranty as to the completeness, accuracy, reliability, or
currency of any information or data that you obtain through the use of a wallet.

WHAT ARE OUR RIGHTS If YOU DEFAULT OR WE HAVE A DISPUTE?
Your Default

Arbitration of
Disputes

An Account will be in default if:
1) you fail to make at least the Minimum Payment when due; 2) you violate any other provision of this Agreement;
3) we believe you may be unwilling or unable to pay your debts on time; 4) you file for bankruptcy; or 5) you
become incapacitated or die.
If your Account is in default, we may close your Account or terminate or suspend your credit privileges without
notice and require full payment of your outstanding balance immediately.
We can also begin collection activities. To the extent permitted by law, if you are in default because you have
failed to pay us, we will require you to pay our collection costs, attorneys’ fees, court costs and all other expenses
of enforcing our rights under this Agreement.
This Agreement contains an Arbitration Provision immediately below. Within 90 days after the date we
open your Account, you may elect to reject the Arbitration Provision by providing a written notice of your
intention to do so to the address: Legal Division (745), Banco Popular de Puerto Rico, P.O. Box 362708,
San Juan, Puerto Rico 00936-2708. Unless you submit your rejection or to the extent permitted by
applicable law, the Arbitration Provision will have a substantial impact on how any legal claims we have
against each other are resolved if either you or we elect arbitration. For example, disputes subject to
arbitration are decided by a neutral arbitrator and not a judge or jury. Also, if you or we elect arbitration,
neither you nor we will have the right to participate in a class action, either in court or in arbitration. This
Arbitration Provision will not apply to, or be enforceable against, covered borrowers under the protection
of the Military Lending Act.

ARBITRATION PROVISION

IMPORTANT WAIVERS: IF YOU OR WE ELECT TO ARBITRATE A CLAIM, YOU AND WE BOTH WAIVE THE RIGHT TO: (1)
HAVE A COURT OR A JURY DECIDE THE CLAIM; (2) PARTICIPATE IN A CLASS ACTION IN COURT OR IN ARBITRATION,
WHETHER AS A CLASS REPRESENTATIVE, CLASS MEMBER OR OTHERWISE, OR ACT AS A PRIVATE ATTORNEY
GENERAL IN COURT OR IN ARBITRATION (THE “CLASS ACTION WAIVER”); (3) JOIN OR CONSOLIDATE CLAIM(S) WITH
CLAIMS INVOLVING ANY OTHER PERSON OR (4) OBTAIN INFORMATION EXCEPT AS PROVIDED HEREIN. OTHER RIGHTS
ARE MORE LIMITED IN ARBITRATION THAN IN COURT OR ARE NOT AVAILABLE IN ARBITRATION.
DEFINITIONS – In this Arbitration Provision, the following definitions will apply:
“Administrator” means, as applicable, the American Arbitration Association (the “AAA”) or J.A.M.S./Endispute (“JAMS”) or if the
AAA and JAMS cannot or will not serve, an arbitration administrator agreed-upon by the parties or appointed by a court, provided that
the Administrator must not have in place a formal or informal policy that is inconsistent with and purports to override the terms of this
Arbitration Provision. You may select the Administrator when you give written notice of an election to arbitrate a Claim or within 20
days after we give such a written notice. Otherwise, we will select the Administrator.
“Claim” means any legal claim, dispute or controversy between you and us that arises from or relates in any way to this Agreement
or the credit card Account including: (i) the fees or charges we or other parties impose in connection with this Agreement or the credit
card Account or the other provisions of this Agreement; (ii) the interest, if any, paid on the credit card account; (iii) any application,
disclosure or other document relating in any way to this Agreement; (iv) any service or product offered or made available by or
through us in connection with this Agreement, including any associated fees, charges, terms or disclosures; (v) any documents,
instruments, advertising or promotional materials that contain information about this Agreement or credit card Account, or any other
such service or product; and (vi) the relationships resulting from any of the foregoing. This includes, without limitation, disputes
involving alleged fraud or misrepresentation, breach of contract, negligence or violation of statute, regulation or common law; and
disputes involving requests for injunctions or other equitable relief. However, “Claim” does not include: (a) any individual action
brought by you in small claims court or your state’s equivalent court, unless such action is transferred, removed or appealed to a
different court; (b) any dispute or controversy about the validity, enforceability, coverage or scope of this Arbitration Provision or any
part thereof (including, without limitation, the Class Action Waiver set forth below, subparts (A) and (B) of the part set forth below titled
“Survival, Primacy, Severability” and/or this sentence); all such disputes or controversies are for a court and not an arbitrator to
decide (but any challenge to this Agreement as a whole is for an arbitrator and not a court to decide); or (c) any exercise by us of our
right to off-set against the amounts you owe us with the amounts you have on deposit with us or any proceeding by you to enjoin the
exercise of such right.
STARTING ARBITRATION – To initiate arbitration, you or we must give written notice of an election to arbitrate. This notice may be
given after a lawsuit has been filed and may be given in papers or motions in the lawsuit, such as a motion to compel arbitration.
Even if all parties have opted to litigate a Claim in court, you or we may elect arbitration with respect to any Claim made by a new
party or any Claim later asserted by a party in that or any related or unrelated lawsuit (including a Claim initially asserted on an
individual basis but modified to be asserted on a class, representative or multi-party basis). Nothing in that litigation shall constitute a
waiver of any rights under this Arbitration Provision. If notice of an election to arbitrate is given, the Claim shall be resolved by
arbitration under this Arbitration Provision and the applicable rules of the Administrator then in effect. The arbitrator will be selected
under the Administrator’s rules, except that the arbitrator must be a lawyer with at least 10 years of experience or a retired judge,
unless you and we agree otherwise.
LOCATION AND COSTS – Any arbitration hearing that you attend will take place in a location that is reasonably convenient to you.
We will consider (and generally honor) any good faith request to bear the fees charged by the Administrator and the arbitrator(s).
Each party shall pay its own expenses; provided, if we lose, we will also pay all fees charged by the Administrator and the arbitrator(s)
and all reasonable fees of your attorneys. In all cases, we will pay all fees and costs (including attorneys’ fees) we are required to
bear under applicable law and/or in order for us to enforce this Arbitration Provision.
DISCOVERY; GETTING INFORMATION – Either party may obtain from the other party prior to the hearing any information available
under the Administrator’s rules or any information the arbitrator determines should be made available.
EFFECT OF ARBITRATION AWARD – Any court with jurisdiction may enter judgment upon the arbitrator’s award. The arbitrator’s
award will be final and binding, except for: (1) any appeal right under the Federal Arbitration Act, 9 U.S.C. §§1 et seq. (the “FAA”);
and (2) Claims involving more than $50,000. For Claims involving more than $50,000, any party may appeal the award to a threearbitrator panel appointed by the Administrator, which will reconsider de novo any aspect of the initial award that is appealed. The
panel’s decision will be final and binding, except for any appeal right under the FAA.
GOVERNING LAW – This Arbitration Provision is made pursuant to a transaction involving interstate commerce and shall be
governed by the FAA, and not by any state law concerning arbitration, provided that the law of New York shall be applicable to the
extent that any state or territorial law is relevant in determining the enforceability of this Arbitration Provision under Section 2 of the
FAA. The arbitrator shall follow applicable substantive law to the extent consistent with the FAA, applicable statutes of limitation and
applicable privilege rules, and shall be authorized to award all remedies that would apply under applicable law to an individual action
brought in court , including, without limitation, compensatory, statutory and punitive damages (subject to constitutional limits that
would apply in court), declaratory, injunctive and other equitable relief (but only in favor of the individual party seeking relief and
only to the extent necessary to provide relief warranted by that party’s individual claim), and attorneys’ fees and costs. Upon the
timely request of either party, the arbitrator shall write a brief explanation of the basis of his or her award. The arbitrator will follow
rules of procedure and evidence consistent with the FAA, this Arbitration Provision and the Administrator’s rules.
SURVIVAL, PRIMACY, SEVERABILITY – This Arbitration Provision shall survive closure of your credit card Account; our sale or
transfer of our rights under this Agreement; any legal proceeding or set-off to collect a debt owed by you; or any bankruptcy or
insolvency. In the event of any conflict or inconsistency between this Arbitration Provision and the Administrator’s rules or this
Agreement, this Arbitration Provision will govern. If any portion of this Arbitration Provision cannot be enforced in a proceeding
between you and us, the rest of the Arbitration Provision will continue to apply, except that: (A) the entire Arbitration Provision (except
for this sentence) shall be null and void if the class action waiver is held to be invalid regarding any class or representative Claim in a
proceeding between you and us, subject to any right to appeal such holding, and (B) if a Claim is brought seeking public injunctive
relief and a court determines that the restrictions in the class action waiver or other parts of this Arbitration Provision prohibiting the
arbitrator from awarding relief on behalf of third parties are unenforceable with respect to such Claim (and that determination
becomes final after all appeals have been exhausted), the Claim for public injunctive relief will be determined in court and any
individual Claims seeking monetary relief will be arbitrated. In such a case the parties will request that the court stay the Claim for

public injunctive relief until the arbitration award pertaining to individual relief has been entered in court. In no event will a Claim for
class-wide relief or for public injunctive relief be arbitrated.
BREACH OF ARBITRATION AGREEMENT – If either party fails to submit to arbitration following a proper demand to do so, that
party shall bear all costs and expenses, including reasonable attorneys’ fees, incurred by the other party in seeking to compel
arbitration.

Contacting Arbitration Administrators
If you have a question about the arbitration administrators mentioned in this Arbitration Provision or would like to obtain a copy of their
Arbitration Rules or fee schedules, you can contact them as follows: American Arbitration Association, 1633 Broadway, 10th Floor,
New York, New York 10019, www.adr.org, (800) 778-7879. Commercial or Consumer Rules, J.A.M.S./Endispute, 222 South Riverside
Plaza, Suite 1850, Chicago, IL 60606; www.jamsadr.com (800) 352-5267, Financial Services Arbitration Rules and Procedures.
WHAT OTHER TERMS APPLY TO OUR RELATIONSHIP?
Closing the
Account

You may close your Account at any time by notifying us either in writing at the address shown on your billing
statement or by phone at the number provided on your billing statement. We will not honor any Convenience
Check or authorize any transactions after your Account is closed. We may close your Account or terminate your
credit privileges at any time for any reason, subject to applicable law. If we do so, you may not use your Card or
any checks we have issued. In either case, You remain responsible for any balance on your Account, which will
continue to accrue Interest Charges and fees and remain subject to all terms of this Agreement.

Privacy

The Popular, Inc. (our holding company) Privacy Notice explains how we collect and share your information.

Communications

We may send Cards, billing statements, and other communications to you at any mailing or email address in our
records. We may also send an email to any address where we reasonably believe we can contact you. By

providing a telephone number for a cellular telephone, other wireless device, or a landline number that is later
converted to a wireless device, you are expressly consenting to receiving communications at that number,
including, but not limited to, prerecorded or artificial voice message calls, text messages, and calls made by an
automatic telephone dialing system from Banco Popular and its affiliates, agents or assigns. If the wireless device
is not registered in your name, you represent that you are its primary user and have the authority to provide this
consent. This express consent applies to each such telephone number that you provide to us now or in the future
and permits such calls regardless of their purpose.
Some of the legal purposes for calls and messages include: suspected fraud or identity theft, obtaining
information; transaction on or servicing of the Account; collecting on the Account, and providing you information
about product and services. These calls and messages may incur access fees from your cellular provider. You
must notify us immediately of any changes to your contact information using the address or phone number shown
on your billing statement.
Telephone
Monitoring

We or a third party may listen to and record your telephone calls with us.

Credit
Information

We may obtain and review your credit history or other information about you from credit reporting agencies and
others, including in connection with the processing, establishment, servicing and collection of your Account. We
may also obtain additional credit reports or other information about you in connection with the same transaction
or extension of credit, for the purpose of reviewing your Account, increasing the credit line on your Account, for
the purpose of taking collection action on your Account, or for other legitimate purposes associated with your
Account. You may ask whether a credit report was obtained by us and we will tell you the name and address of
the credit reporting agency, if a report was obtained.
We may also provide information about your Account to credit reporting agencies and others. A negative credit
report reflecting on your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of
your credit obligations. We may provide information to credit reporting agencies about this Account in the name
of an authorized user. If you think we provided incorrect information, write to us at the address provided on your
billing statement and we will investigate.

Enforcement

We may choose to delay enforcing or waive any of our rights under this Agreement. We can delay enforcing or
waive any of our rights without affecting our other rights. If we waive a right, we do not thereby waive the same
right in other situations.

Applicable Law

This Agreement and the Account will be governed by federal law, and to the extent state or territorial law is
applicable, the laws of the Commonwealth of Puerto Rico, and these laws will apply no matter where you live or
use this Account.

Amendments

We may change or terminate all or any part of this Agreement, including APRs and fees, at any time. We may
also add new terms or delete terms. Any changes will be in accordance with applicable law, and we will provide
notice as required by law.

Assignment

We may sell, assign or transfer the Agreement and the Account or any portion thereof without notice to you, and
the purchaser, assignee, or transferee shall have the same rights as we do under this Agreement. You may not
sell assign, or transfer the Account.

Severability

Except as specifically provided in the arbitration section above, if any provision of this Agreement is finally
determined to be void or unenforceable under any law, rule or regulation, all other provisions of this Agreement
will remain valid and enforceable.

Restrictions on
Use

Banco Popular may restrict use of your Card in any jurisdiction or country where such use would be contrary to
U.S. law or regulation, or which is identified as presenting a high risk of fraud.

Additional Disclosures for Residents of Specific States

Florida Residents: You (borrower) agree that, should we obtain a judgment against you, a portion of your disposable earnings may
be attached or garnished (paid to us by your employer), as provided by Florida and Federal law.
Kentucky Residents: You may pay the unpaid balance of your account in whole or in part at any time.
Maryland Residents: To the extent federal law and the laws of the Commonwealth of Puerto Rico do not apply, this Agreement is
governed by Title 12, Subtitle 9 of the Maryland Commercial Law Article.
Missouri Residents: Oral agreements or commitments to loan money, extend credit or to forbear from enforcing repayment of a debt
including promises to extend or renew such debt are not enforceable. To protect you (borrower(s)) and us (creditor) from
misunderstanding or disappointment, any agreements we reach covering such matters are contained in this writing, which is the
complete and exclusive statement of the agreement between us, except as we may later agree in writing to modify it.
New Jersey Residents: Because certain provisions of this Agreement are subject to governing law, they may be void, unenforceable
or inapplicable in some jurisdictions. None of these provisions are void, unenforceable or inapplicable within New Jersey.
New Hampshire Residents: Reasonable attorney’s fees will be rewarded to you if you prevail in any action, suit or proceeding
brought by us or an action brought by you. Also, if you successfully assert a partial defense or set-off, recoupment or counterclaim to
an action brought by us, the court may withhold from us the entire amount or such portion of the attorney’s fees as the court considers
equitable.
Washington Residents: Pursuant to the Revised Code of Washington, Section 63.14.167, you are not responsible for payment of
any service charges that result solely from a merchant’s failure to transmit to us within seven working days a credit for goods or
services accepted for return or forgiven if you have notified us of the merchants delay in posting such credit or failure to post such
credit to your account within three working days of our receipt of the credit.
Notice Legal Rights and Protections under the Military Lending Act
If you are a servicemember on “active duty” or “active service”, or a spouse or dependent of such servicemember you may be
entitled to certain protections pursuant to the Military Lending Act (MLA) [32 CFR Part 232]. The following statement only applies if
you are a covered borrower under the Military Lending Act (MLA) [32 CFR Part 232].
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the Armed Forced and his or her dependent may not
exceed an annual percentage rate of 36%. This rate must Include, as applicable to the credit transaction or account: the costs
associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for specified credit transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account). If you would like to obtain these disclosures orally, you may call the
toll-free number 1-844-773-6499.
YOUR BILLING RIGHTS – Keep this document for future use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find A Mistake On Your Billing Statement
If you think there is an error on your billing statement, write us at the address shown on your billing statement. In your letter, give us
the following information.
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of the problem: If you think there is an error on your billing statement, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your billing statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the billing statement is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your billing statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You have to pay the amount in question, along with applicable interest and fees. We will

send you a billing statement of the amount you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.
If you receive our explanation but still believe your billing statement is wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as delinquent without also reporting you are questioning your billing statement.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of these rules above, you do not have to pay the first $50 of the amount you question even if your billing statement
is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state (or territory) or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold the good or services.)
2. You must have used your credit card for the purchase. Purchases made with Cash Advances from an ATM or with a check that
accesses your credit card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the address shown on your
billing statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

